WAIVER

Supreme Court, U.S.
FILED

OCT 0 7 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Henrieta Pisztora, et al.

20-359
v.

City of Pittsburgh, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Ll Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

City of Pittsburgh

[1] I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a J ar member.
Signature
Date.

Octo er 7, 2020

(Type or print) Name

Lawrence Henry Baumiller
Ill Mr.

Firm

❑ Mrs.

❑ Miss

City of Pittsburgh Department of Law

Addre ss

414 Grant Street, City-County Building Suite 313

City & State
Phone

E] Ms.

Pittsburgh, Pennsylvania

412-255-2002

Zip
Email

15219

lawrence.baumiller@pittsburghpa.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Deborah R. Erbstein, Esquire; Josh Shapiro, Esquire; Beth Cronin

RECEIVED
OCT 16 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

WILLIAM PEDUTO
MAYOR

YVONNE HILTON
CITY SOLICITOR

CITY OF PITTSBURGH
DEPARTMENT OF LAW
CITY-COUNTY BUILDING
From the desk of
Lawrence H. Baumiller
Assistant City Solicitor
lawrence.baumiller(4ittsburghpa.gov

October 7, 2020
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
re: No. 20-359
Henrieta Pisztora, et al. v. City of Pittsburgh, el al.
Dear Mr. Harris:
The City of Pittsburgh will not file a brief in opposition to the Petition for a Writ of Certiorari filed
in No. 20-359. Enclosed for filing is the City of Pittsburgh's waiver form.
Sincerely,

L`a,kvrence H. Baumill
Assistant City Solicitor
LHB/ljs
Enclosure
cc:

Deborah R. Erbstein, Esquire
Josh Shapiro, Esquire
Beth Cronin

414 GRANT STREET I 313 CITY-COUNTY BUILDING, PITTSBURGH, PA 15219 I 412-255-2015

